      Department of Homeland Security





             Transportation Security Administration 

            Logistics Center – Inventory Management 





OIG-13-82                                           April 2013

                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                                Washington, DC 20528 / www.oig.dhs.gov


                                    APR 26 2013 
                                                
MEMORANDUM FOR:	              John W. Halinski 
                              Deputy Administrator 
                              Transportation Security Administration  
 
FROM:	                        Anne L. Richards 
                              Assistant Inspector General for Audits 
 
SUBJECT:	                     Transportation Security Administration Logistics Center – 
                              Inventory Management 
 
Attached for your action is our final report, Transportation Security Administration Logistics 
Center – Inventory Management.  We incorporated the formal comments from the 
Transportation Security Administration in the final report.   
 
The report contains two recommendations aimed at improving inventory management at 
the Logistics Center.  Your office concurred with one recommendation and partially 
concurred with the other.  As prescribed by the Department of Homeland Security Directive 
077‐01, Follow‐Up and Resolutions for Office of Inspector General Report Recommendations, 
within 90 days of the date of this memorandum, please provide our office with a written 
response that includes your (1) agreement or disagreement, (2) corrective action plan, and 
(3) target completion date for each recommendation.  Also, please include responsible 
parties and any other supporting documentation necessary about the current status of the 
recommendation.  Until your response is received and evaluated, the recommendations will 
be considered open and unresolved.   
 
Consistent with our responsibility under the Inspector General Act, we are providing copies 
of our report to appropriate congressional committees with oversight and appropriation 
responsibility over the Department of Homeland Security.  We will post the report on our 
website for public dissemination. 
 
Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant 
Inspector General for Audits, at (202) 254‐4100.  
 
Attachment 
                                
                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security
                                        

Table of Contents
Executive Summary ............................................................................................................ 1

Background ........................................................................................................................ 2

Results of Audit ................................................................................................................... 4

           TSA Inventory Management ................................................................................... 4 

           Planned TSA Actions ............................................................................................ 11 

           Recommendations ............................................................................................... 12 

           Management Comments and OIG Analysis ......................................................... 12 

           

Appendixes


           Appendix A:          Objectives, Scope, and Methodology ............................................ 15 

           Appendix B:          Management Comments to the Draft Report ............................... 16 

           Appendix C:          Warehouse Inventory Aging ......................................................... 20 

           Appendix D:          Major Contributors to This Report ................................................ 21 

           Appendix E:          Report Distribution ........................................................................ 22 



Abbreviations
           Auto EDS              automated explosive detection system
           DHS                   Department of Homeland Security
           EDS                   explosive detection system
           ETD                   explosive trace detection
           FFE                   furniture, fixtures, and equipment
           OIG                   Office of Inspector General
           PER                   peripheral equipment
           TSA                   Transportation Security Administration
           TSE                   transportation security equipment






                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Executive Summary
   The Transportation Security Administration (TSA) operates three warehouses in Texas,
   collectively known as the TSA Logistics Center. The warehouses store various types of
   Government equipment used at airports to screen passengers and baggage. Equipment
   used at airports, but not specifically used for screening operations, is also stored in the
   warehouses. As of May 31, 2012, TSA had more than 17,000 items in its warehouse
   inventory, with an estimated cost of $185.7 million. We performed this audit to
   determine whether TSA effectively managed the Logistics Center.

   Although TSA has improved accountability of screening equipment at the Logistics
   Center, its plans and procedures for inventory management need additional
   improvements. Specifically, TSA stored unusable or obsolete equipment, maintained
   inappropriate safety stock levels, and did not develop an inventory management
   process that systematically deploys equipment. Additionally, TSA did not use all storage
   space within the Logistics Center. As a result, TSA may be losing utility of equipment as
   it ages and may be able to put approximately $800,000 per year—used to lease two
   warehouses—to better use.

   In response to our audit, TSA indicated that it was planning additional improvements to
   warehouse operations. TSA determined that it will not need one of its three warehouses
   after January 2013, when the lease expires, and in July 2012 it drafted a plan to reduce
   leased space. Allowing the lease to expire will reduce TSA’s warehouse annual lease
   costs. Additionally, TSA drafted a revision of its Security Equipment Management
   Manual to include additional guidance on managing warehouse space and inventory.

   We made two recommendations to TSA that, when implemented, should assist the
   component with managing inventory in its warehouses. TSA concurred with one
   recommendation and partially concurred with the other.




www.oig.dhs.gov                                 1                                        OIG-13-82

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Background
   TSA operated three warehouses in Texas, collectively known as the TSA Logistics Center
   (Logistics Center).1 The Logistics Center stored various types of equipment used for
   screening passengers and baggage. The equipment included x-ray units, metal
   detectors, explosive trace detection (ETD) units, and explosive detection systems (EDSs).
   Nonscreening equipment (about 8 percent of the monetary amount of inventory items)
   stored at the Logistics Center included furniture, equipment cases, conveyors, and floor
   mats. As of May 31, 2012, TSA had more than 17,000 items, valued at about
   $185.7 million, stored at the Logistics Center. Table 1 shows a breakdown of the
   quantity of items stored by equipment type and the recorded value.

  Table 1. Warehouse Inventory as of May 31, 2012
                                                                                          Dollar Value
                          Type of Equipment                               Quantity
                                                                                            Recorded
  Transportation Security Equipment (TSE)                                   1,790              $118,569,244
  Peripheral Equipment (PER)                                                  576                $6,587,254
  Furniture, Fixtures, and Equipment (FFE)                                 10,882                $4,523,188
  Items on Hold                                                                 67               $1,232,864
  Transportation Security Equipment Pending Disposal2                         972               $50,725,044
  Non-screening Equipment Pending Disposal                                  2,717                $4,040,160
                                Total                                      17,004              $185,677,754
  Source: Department of Homeland Security Office of Inspector General analysis of TSA data.

  Table 2. Types of Equipments stored at the Logistics Center
              Type                                                  Description
                                 Equipment used to screen passengers, baggage, and cargo for threats to the
               TSE
                                 transportation system
                                 Equipment that does not screen for threats but that is deployed and used
               PER               with other screening equipment (e.g., EDS conveyors and x-ray viewing
                                 stations)
                                 Miscellaneous ancillary items used in or related to the screening environment
                 FFE
                                 (e.g., chairs, tables, stanchions)
                                 Equipment that has been allocated for a purpose (e.g., deployment) and is
          Items on Hold
                                 therefore not available for other purposes
       TSE Pending Disposal      TSE that has been designated for reutilization or disposal
                                 Nonscreening equipment that has been designated for reutilization or
   Non-TSE Pending Disposal
                                 disposal
  Source: TSA.



   1
     TSA also operates warehouses in New Jersey and Virginia. We plan to conduct audit work on the 

   management of these warehouse facilities in the future. 

   2
     Examples of TSE pending disposal include EDS (listed value $21.7 million), ETD ($20.6 million), Threat 

   Image Projection x-ray units ($5.7 million), and Bottle Liquid Scanners ($2.5 million). 


www.oig.dhs.gov                                         2                                                 OIG-13-82
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   TSA leased three warehouses comprising approximately 443,000 square feet. The
   annual cost for the warehouses was $1.8 million. Table 3 shows the Logistics Center
   lease information. Since 2010, TSA has spent about $5.5 million to lease warehouse
   space.

              Table 3. Logistics Center Lease Information
                                                  Annual Lease
              Warehouse        Square Feet                                Lease Expiration
                                                      Cost
                    1                   233,740           $1,021,444       September 2014
                    2                   100,000              383,040        January 2013
                    3                   109,750              421,441       September 2014
                  Total                 443,490           $1,825,925
              Source: TSA.

   TSA spends an additional $1.4 million annually on a contract to operate the warehouses
   and provide inventory support services. The contractor is responsible for warehouse
   functions such as receiving, staging, storing, distributing, shipping, and disposal. In
   addition to warehouse operations and management, the contractor conducts an annual
   inventory.

   We performed this audit as a result of a May 2012 congressional hearing on TSA
   procurement, deployment, and storage of airport security-related equipment. The
   hearing discussed a report titled Airport Insecurity: TSA’s Failure To Cost-Effectively
   Procure, Deploy, and Warehouse Its Screening Technologies, issued by the joint majority
   staff from the House Committee on Oversight and Government Reform and the House
   Committee on Transportation and Infrastructure.

   The hearing also discussed the Department of Homeland Security (DHS) Office of
   Inspector General (OIG) report, Management of the Transportation Security
   Administration’s Logistics Center, issued in 2009.3 The report concluded that TSA did
   not efficiently deploy, redeploy, or dispose of transportation security equipment
   through its Logistics Center. Specifically, the report addressed quantity of equipment
   and time in storage at the Logistics Center, and it recommended that TSA develop,
   implement, and monitor procedures for deployment, redeployment, and disposal of
   transportation security equipment, and periodically assess inventory to make sure
   inventory is correctly classified. Although TSA developed policies and procedures to
   address the report’s recommendations, we identified similar findings during this review.




   3
    OIG-10-14, Management of the Transportation Security Administration’s Logistics Center, November 2009,
   http://www.oig.dhs.gov.

www.oig.dhs.gov                                       3                                              OIG-13-82
                                  OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Results of Audit
   TSA has improved accountability of screening equipment at the Logistics Center;
   however, its plans and procedures for inventory management need additional
   improvements. Specifically, TSA stored unusable or obsolete equipment, maintained
   inappropriate safety stock levels, and did not develop an inventory management
   process that systematically deploys screening equipment. Additionally, TSA did not use
   all storage space within the Logistics Center. As a result, TSA may be losing utility of
   equipment as it ages and annually funding approximately $800,000 of unneeded
   warehouse space.

           TSA Inventory Management

           Equipment in Storage

           TSA had unusable, obsolete equipment and equipment that exceeded safety
           stock requirements stored at the Logistics Center. As of May 31, 2012, TSA had
           17,004 items stored at the Logistics Center. TSA divides the inventory into three
           types or categories:
                                                                     Equipment Condition Codes
           •      Transportation Security Equipment (TSE),           1 – new,
           •      Peripheral Equipment (PER), and                    4 – used,
                                                                     7 – used and needs repair, and
           •      Furniture, Fixtures, and Equipment (FFE).          X – disposal.

           Within the inventory categories, TSA designates     Source: TSA
           condition codes for individual items held in
           inventory. Items in the warehouse designated “on-hold” are allocated for a
           specific purpose. Table 4 shows the length of time TSA stored the equipment at
           the Logistics Center as of May 31, 2012.

               Table 4. Length of Time TSA Stored Equipment at the Logistics Center
                                           >1 year and                           Dollar Value
               Condition Code S 1 year                  � 2 years    Quantity
                                            < 2 years                              Recorded
                     1 – New         3,860             1,794     3,238      8,892       $68,849,602
                    4 – Used         1,516               916       166      2,598        31,674,397
                    7 – Needs
                                     1,400                 300     58       1,758        29,155,687
                      Repair
                     On-Hold            49                  16      2          67         1,232,864
                   X – Disposal      2,701                 628    360       3,689        54,765,204
                      Total          9,526             3,654     3,824     17,004     $185,677,754
               Source: DHS OIG analysis of TSA data.


www.oig.dhs.gov                                        4                                         OIG-13-82
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Table 4 shows that TSA stored approximately 22 percent or 3,824 of 17,004
           items, in the warehouse for more than 2 years. Appendix C provides additional
           information by category and condition code on the length of time equipment
           remained in the warehouse. Table 5 shows that of the equipment stored at the
           Logistics Center for more than 2 years that was not on hold or pending disposal,
           100 items were TSE.

              Table 5. TSE Stored at Logistics Center for More Than 2 Years (24 Months) as
              of May 31, 2012
                                                                    Storage Time   Dollar Value
                              Description                 Qty
                                                                     (in months)    Recorded
              Explosive Trace Detector                      48          24–60        $1,632,000
              Enhanced Metal Detector                       33          30–69           247,500
              Threat Image Projection Ready X-Ray           11          36–48           375,562
              Explosive Detection System
                                                                7      31–47          5,741,500
              (including three new Auto EDSs)
              Bottle Liquid Scanner                          1          35                    0
                                  Total                    100                       $7,996,562
              Source: DHS OIG analysis of TSA data.

           The quantity of TSE stored in the warehouse for more than 2 years accounted for
           approximately one-half percent of 17,004 items in the warehouse, yet it
           represented almost $8 million, or 4 percent of the dollar value recorded for all
           inventory in the warehouse. This illustrates that increased quantities of TSE
           stored at the warehouse may significantly increase the dollar value of inventory.
           Further, this may result in millions of dollars worth of screening equipment
           becoming obsolete or unusable while stored for an extended period.

           With prolonged storage, TSA lost utility of equipment as it aged in storage. As of
           May 31, 2012, TSA had 12 automated explosive detection system (Auto EDS)
           units at the warehouse, including three new units stored at the warehouse for
           more than 3 years. According to one TSA official, the component does not plan
           to deploy the Auto EDS units that sat in storage. In 2007, TSA awarded contracts
           to acquire Auto EDSs to provide baggage-screening technology for checkpoints.
           However, TSA officials explained that other checkpoint technology screened
           baggage faster and required less space than the Auto EDS, and as of November
           2012, TSA removed all Auto EDS units from airports. The recorded value of the
           eight Auto EDS units stored at the warehouse in November 2012 was
           approximately $3.7 million. Upgrades for the Auto EDS units in the warehouse
           were about $1 million. The Auto EDS units became obsolete while aging in the
           warehouse.



www.oig.dhs.gov                                       5                                       OIG-13-82

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           TSA also stored nonscreening equipment in the warehouse for long periods.
           Specifically, TSA stored more than 3,200 FFE items in the warehouse for more
           than 2 years. Examples include 294 wastebaskets stored for more than 7 years,
           and 41 empty crates—used for various pieces of screening equipment—stored
           for more than 2 years. Table 6 shows examples of nonscreening items that TSA
           stored for more than 2 years.

            Table 6. Examples of Non TSE Stored at Logistics Center for Longer Than 2 Years
            (24 Months)
                                                                Condition         Storage Time
                              Description                                   Qty
                                                                 Code(s)            (Months)
            L3 AC Noise Reduction Kit and L3 Remote BVS Kit         1        3        26-88
            Wastebasket                                             1       294        87
            Conveyor (Power, Exit, Extension, Entry, Bracket,    1 and 4    131       24-67
            Extension, and Pedestal)
            Reveal Master Control Client Kits and NETGEAR        1 and 4    22       26-60
            Switches (EDS Ancillary Items)
            Rolling Itemiser (ETD) Case                             4       17       51-58
            Empty Equipment Crates                               1 and 4    41       28-55
            Source: DHS OIG analysis of TSA data.

           TSA’s warehouse inventory also included obsolete items. The inventory showed
           that TSA had 266 Threat Image Projection Ready x-ray units in the warehouse.
           The machine, used to screen carry-on baggage, is obsolete technology, being
           replaced by Advanced Technology and Advanced Technology 2 x-rays. TSA also
           warehoused five new whole body imager training simulators (laptop computers)
           for more than 3 years. TSA replaced the whole body imager with advanced
           imaging technology units and never used these laptop simulators.

           Safety Stock

           TSA did not have appropriate safety stock levels
                                                               Safety Stock: Inventory that is
           at the Logistics Center to meet its safety stock    carried to prevent a shortage of
           requirements. TSA relied on nondeployable           critical equipment. TSA does
           equipment, had insufficient quantities of some 	    not consider equipment with a
           equipment, and excessive quantities for other       known deployment site to be
                                                               safety stock.
           equipment. TSA holds safety stock as insurance 

           against uncertainties such as equipment failure,    Source: TSA. 

           emerging requirements, or special events. 

           Adequate safety stock levels permit TSA to respond to maintenance needs while 

           minimizing the adverse affect on screening operations. 





www.oig.dhs.gov                                       6	                                      OIG-13-82

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           TSA relied on nondeployable screening equipment to meet safety stock
           requirements. For example, the target safety stock level for one type of bottle
           liquid scanner was 18 units. The warehouse inventory report for the third
           quarter of fiscal year 2012 also showed 18 units designated as safety stock;
           however, 10 of the 18 units needed repair and were nondeployable. Based on
           the number of bottle liquid scanner units designated as safety stock in inventory
           and the condition codes assigned to them, only eight units were in redeployment
           condition. TSA officials said that safety stock quantities and levels are evaluated
           and updated every quarter in conjunction with the quarterly warehouse
           disposition process. We identified equipment designated as safety stock stayed
           at condition code 7, or repair needed, on consecutive warehouse inventory
           reports.

           In February 2012, TSA evaluated safety stock inventory for nine types of EDS and
           determined that the quantity of safety stock was deficient for six of the nine
           types. For example, TSA set the level of safety stock for one type of EDS actively
           under production and deployment at five units. Although TSA had 12 of these
           units in the warehouse, none were designated as safety stock. TSA’s ability to
           respond to critical failures for this piece of equipment is affected by not having
           equipment available for safety stock.

           TSA also assessed checkpoint technology safety stock in July 2012 and identified
           equipment with a shortage of warehouse safety stock, as well as equipment in
           inventory that exceeds the safety stock target. Table 7 shows that TSA’s review
           identified a safety stock shortage for six types of passenger checkpoint screening
           equipment.

              Table 7. Safety Stock Shortage—Checkpoint Technology
                                                            Quantity in   Safety Stock
                            Technology                                                   Difference
                                                            Inventory        Target
              Advanced Imaging Technology-Rapiscan              1              8             -7
              Advanced Imaging Technology-L3                    1              12           -11
              ETD Smiths 500DT                                  6              25           -19
              ETD Itemiser II (Includes Passenger and          69              85           -16
              Baggage Screening Units)
              Bottle Liquid Scanner-CEIA                        9             22            -13
              Advanced Technology X-Ray                         1             3              -2
              Source: TSA.

           TSA also stored empty ETD cases (exhibit 1) in quantities that exceed its stated
           level for safety stock. TSA’s July 2012 review showed almost 1,400 more empty
           cases in inventory than were necessary to meet the target safety stock level of
           459. TSA officials explained that after ETD units were placed in service, airports

www.oig.dhs.gov                                         7                                         OIG-13-82
                               OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           sent the empty cases to the warehouse for storage. Some of the empty cases
           were stored in the warehouse for almost 5 years. To optimize existing
           warehouse space, TSA could have recycled or removed the cases from inventory.

            Exhibit 1. Empty ETD Cases




            Source: DHS OIG.

           Without appropriate safety stock levels, TSA was not prepared to meet
           equipment emergencies that could affect field operations and national security,
           or increase travelers’ time spent at passenger screening checkpoints.

           Inventory Deployment

           TSA did not use a systematic inventory method for deploying screening
           equipment from the warehouse. Instead, according to TSA officials, the
           component requests equipment from the Logistics Center by serial number. This
           method does not provide for a disciplined rotation and valuation of warehouse
           inventory. An example of a systematic inventory deployment process includes
           first in-first out, which selects screening equipment that has been in the
           warehouse longest for deployment first. This process ensures that warehouse
           storage time is minimized.

           We identified examples where TSA deployed screening equipment without a
           logical or systematic method. For example, TSA deployed one EDS unit that was
           stored in the warehouse for 1 month, even though two additional units had been
           in storage for 21 and 31 months each. TSA also deployed an enhanced metal
           detector that had been stored for only 3 months when another had been in the
           warehouse for more than 4 years. These examples show weak inventory

www.oig.dhs.gov                               8                                       OIG-13-82

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           management and deployment procedures that may lead to a loss of screening
           equipment utility through long shelf time.

           Unused Warehouse Space

           TSA did not use all storage space within the Logistics Center. According to an
           April 2012 TSA report of Logistics Center space usage, TSA did not use all
           available floor and shelf space at the three facilities. Specifically, TSA did not use
           72,074 square feet (about 16 percent) of the approximately 440,000 square feet
           of floor space. TSA was paying for unused space that equates to an area larger
           than a football field. Exhibit 2 shows the empty floor space in Logistics Center 2.
           According to TSA, the component used the empty floor space as a training area
           for its canine handlers. TSA officials explained that the component will not
           renew the warehouse lease when it expires in January 2013. In September 2012,
           TSA notified the warehouse owner that it did not intend to renew the lease;
           however, TSA could not provide us with documentation of a formal, approved
           plan for its future warehousing needs.

           Exhibit 2. Warehouse 2 Unused Floor Space




           Source: DHS OIG.

           The April 2012 report also showed that TSA did not use 2,142 (64 percent) of
           3,344 available shelves. Exhibit 3 shows unused shelf space.




www.oig.dhs.gov                                  9                                         OIG-13-82

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Exhibit 3. Warehouse 1 Unused Shelf Space 





           Source: DHS OIG.

           Without an effective inventory management process, TSA cannot accurately
           estimate the space required for equipment storage and minimize warehouse
           leasing expenses.

           Inventory Policies and Procedures

           TSA’s guidance for inventory management did not clearly articulate inventory
           procedures. TSA’s Personal Property Management Manual and Security
           Equipment Management Manual did not prescribe detailed guidance for
           inventory management at the Logistics Center. The Personal Property
           Management Manual provides overall TSA guidance for management of personal
           property. It establishes property management principles, such as—

                  •   Maximizing return on investment;
                  •   Managing inventory effectively;
                  •   Minimizing the cost of management systems;
                  •   Making excess property the first source of supply; and
                  •   Maximizing reuse.

           TSA’s Personal Property Management Manual also defines personal property, as
           well as accountability and capitalization thresholds, and establishes roles and
           responsibilities.




www.oig.dhs.gov                                   10                                  OIG-13-82

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           Additionally, the Office of Security Capabilities
                                                                           Personal Property: Tangible
           issued the Security Equipment Management
                                                                           property, such as equipment,
           Manual, which describes the processes and                       materials, and supplies that
           procedures to account for personal property                     can be moved from place to
           throughout its life cycle.4 It applies to TSE, PER,             place.
           and FFE purchased or leased by the Office of
                                                                           Source: TSA.
           Security Capabilities.

           The Security Equipment Management Manual also describes roles,
           responsibilities, and warehouse operational procedures, but does not include
           detailed procedures for warehouse inventory management related to
           redeployment of warehouse equipment and safety stock requirements. For
           example, chapter 7 of the manual addresses Logistics Center procedures such as
           hours of operation, receiving, periodic inventories, and the warehouse property
           management system. The chapter also addresses selecting, staging, and
           distributing equipment. It requires the contractor to identify the property for
           issue and provide documentation to the property custodian to update TSA’s
           property system, but does not address the inventory method the contractor
           should use to select the requested equipment.

           The manual assigns responsibilities for Logistics Center property management to
           a property custodian, and instructs the property custodian to provide a quarterly
           inventory list to the equipment contracting officer’s representatives for review,
           and to update records accordingly. Although TSA provided records to show that
           quarterly reviews occurred, without clear, detailed warehouse inventory
           management policies and procedures, TSA may be losing utility of equipment as
           it ages and paying for unused warehouse space.

           Planned TSA Actions

           Warehouse Leases

           In July 2012, TSA drafted plans to reduce the number of warehouses it leased.
           TSA explained that it would not need warehouse space used for storing
           American Recovery and Reinvestment Act of 2009 procurements after January
           2013, when the lease agreement expires. This will reduce TSA’s warehouse
           space by 100,000 square feet and annual lease costs by $383,000. TSA also
           reported that it expanded the amount of new equipment shipped directly from
           the manufacturer to airports. This will also reduce storage space requirements.

   4
    Logistics Center operations are managed by the Operations Support Division within TSA’s Office of
   Security Capabilities.

www.oig.dhs.gov                                      11                                                 OIG-13-82
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           TSA plans to consolidate all equipment into a single warehouse by January 31,
           2013, and to review the feasibility of terminating the lease for the third
           warehouse prior to its scheduled expiration in September 2014. Eliminating the
           third warehouse would further reduce TSA’s storage space by almost 110,000
           square feet and leasing costs by approximately $421,000. By October 2014, TSA
           should have a lease agreement for one warehouse, reducing the component’s
           costs by approximately $800,000 per year.

           Security Equipment Management Manual

           TSA is updating its Security Equipment Management Manual, and the updated
           version will include additional guidance on warehouse management. The
           revised manual will reflect the Office of Security Capabilities’ new organizational
           structure and provide guidance on safety stock, quarterly reviews, inventory
           deployment, and disposal.

           Recommendations

           We recommend that the Deputy Administrator, Transportation Security
           Administration:

           Recommendation #1:

           Implement detailed inventory management procedures for equipment at the
           Transportation Security Administration Logistics Center.

           Recommendation #2:

           Develop and implement procedures to assess and adjust warehouse space on an
           annual basis.

           Management Comments and OIG Analysis

           TSA provided comments to the draft of this report. When appropriate, we made
           changes to reflect the suggested revisions. According to its response to the draft
           report, TSA agreed with our recommendations. TSA also provided additional
           information for four sections of the draft report: Equipment in Storage, Safety
           Stock, Inventory Deployment, and Unused Warehouse Space. A summary of the
           responses and our analysis follows. We included a copy of the management
           comments in their entirety in appendix B.



www.oig.dhs.gov                                12                                        OIG-13-82

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           In its comments to the draft report, TSA asserts that OIG did not sufficiently
           recognize warehouse space requirements fluctuate. TSA further explained that a
           2011 report on warehouse space usage shows only 1 percent of warehouse space
           was unused. In its comments, TSA did not recognize that the component used
           the Logistics Center to temporarily store equipment funded by the American
           Recovery and Reinvestment Act of 2009 instead of directly shipping the
           equipment from the manufacturer to the airports. In its February 2013 update
           to the Security Equipment Management Manual, TSA emphasized that
           component personnel should ship property directly from the manufacturer to
           the airport sites whenever possible to minimize the use of the Logistics Center as
           an interim staging location. This process should lessen large fluctuations of
           equipment in the warehouse.

           TSA commented that the Exhibit 2 photograph is misleading, as it does not
           recognize that TSA intentionally removed equipment from Logistics Center 2 in
           its efforts to reduce space. TSA also clarified that the component used the
           empty warehouse space for canine handlers on one occasion. Our report
           recognizes TSA planned to reduce warehouse space and did not intend to renew
           the lease for Logistics Center 2. Additionally, while we agree TSA used Logistics
           Center 2 to store screening equipment, warehouse floor space was set up for
           canine training during our site visit to the facility in June 2012.

           Response to Recommendation #1: TSA concurs. The component adopted and
           implemented an inventory management policy to issue equipment on the first
           in-first out basis. Additionally, TSA instituted weekly procedures to identify and
           highlight for action safety stock not in deployable condition.

           OIG Analysis: TSA’s actions are partially responsive to the recommendation.
           Although the component provided actions to improve inventory deployment and
           management of safety stock, the comments did not fully address actions TSA will
           take to minimize the storage of unusable or obsolete equipment. The
           recommendation will remain open and unresolved until TSA provides additional
           information in response to the recommendation, and we review the
           implemented policy and procedures to ensure that they comprehensively
           address the identified concerns.

           Response to Recommendation #2: TSA partially concurs. TSA understands the
           need to reassess warehouse space requirements annually and will implement
           that portion of the recommendation. However, TSA identified constraints where
           adjusting leased warehouse space on an annual basis may be infeasible.



www.oig.dhs.gov                                13                                        OIG-13-82

                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


           OIG Analysis: TSA’s planned actions sufficiently address the recommendation.
           We recognize TSA should honor contractual commitments for agreed-upon
           periods. With the implementation of annual warehouse space assessments, TSA
           should be able to better plan for short- and long-term warehousing needs. The
           recommendation will remain open and unresolved until we examine the
           approved policy and procedures for conducting annual assessments.




www.oig.dhs.gov                              14                                     OIG-13-82

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of the audit was to determine whether TSA effectively managed the
   Logistics Center. We reviewed TSA property management policies, procedures, and
   other memorandums. We also reviewed contracts for leasing the warehouses and
   related support services. We interviewed TSA staff responsible for the management
   and operation of the Logistics Center.

   We examined the inventory records for equipment stored at the Logistics Center as of
   May 31, 2012. During our site visit, we performed inventory testing of screening
   equipment and reviewed selected contracts for purchase of equipment stored in the
   warehouse to confirm purchase price. We also analyzed records for the equipment
   disposed of between May 2010 and June 2012.

   We relied on computer-processed data provided by TSA staff to analyze the length of
   time equipment had remained at the warehouse. We validated the accuracy of the data
   by testing a randomly drawn statistical sample of screening equipment to verify correct
   type, serial number, and bar code for the selected equipment. We determined that the
   data was sufficiently reliable for the purpose of this report.

   We conducted this performance audit between May and December 2012 pursuant to
   the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                               15                                       OIG-13-82

                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                                       u.s, Dtpartment of Homdond Sel'llrity
                                                                                       WI Soutb J2tkSlr~ct
                                                                                       Ar\ingt(ll', VA 2')59~


                                                                                       Transportation
                   MAR 2 9 2013                                                        Security
                                                                                       Administration
                                                      INfORMATION


             MEMORANDUM FOR,                Anne L Richards
                                            AssisTant Inspector General for Audits
                                            U.S. Department of Homeland Security

             FROM,                          J.W. Halinski  gl
                                            lJeputy Admin"tIirator

             SUBJECL                        Draft Report: Transportation Security Administration Logistics
                                            Center-!'1l'(mlury Management - For Official Use Only (DIG
                                            Pruject No. 12-170-AUD-TSA)



             This memorandum constitutes the Transportation Security Administration's (TSA) fonnal
             Agency response to the subject report. TSA recognizes its responsibility for effective
             management of Transportation Security Equipment eTSE). We appreciate that the report
             acknowledged improved accowuability at the TSA Logistics Center (TLC) and are grateful for
             the uPJXlrlunity to review and provide comments to your draft report.

              Background

              TSA is charged \Vith countering terrorist threats to a\r1ation security with technologies and
              procedures that prevent, deter, or render ineffective any attempt to sabotage civil aviation. The
              development, acquisition, and deployment ofTSE are central to TSA 's mission to protect {J.S.
              trnnsportation systems. TSA personnel usc equipment to screen air passengers, baggage, and
              cargo, including xMrays, explosives trace detection systems, explosives detection systems (EDS),
              bottled liquid scanners, and enhanced walk-through metal detectors.

              The TLC is a facility used to temporarily stage new and used screening equipment for
              deployment or redeployment to airports, and for processing surplus and obsolete equipment for
              disposal. TLC also stores non-screening equipment used at chee1.'-points and baggage screening
              operations, such as conveyors, tables, and stanchions.




www.oig.dhs.gov                                                  16                                                            OIG-13-82

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security



                                                                                                                2


              The Office of Inspector General (OIG) pcrfonncd this audit as a result of a May 2012
              Congressional hearing on TSA procurement, deployment, and storage of airport security-related
              equipment. The hearing discussed a report tiHed Airport insecurity TSA 's Failure 10 Cost-
              Effectively Procure, Deploy mJd Warehouse its Screening Technologies, It was issued by the
              joint majority staff from the House Committee on Oversight and Government Reform and the
              House Committee on Transportation and Infrastructure, The hearing also discussed a
              U.S. Department of Homeland Security (DHS) 010 report, Managemem o/Ihe Transportalion
              Security Administration's Logistics Center, issued in 2009. The three recommendations from
              that report have been closed.

              The 01G audit resllits fbund that TSA has improved accountability of screening equipment at ihe
              TLC since 2009 and noted that plans and procedlrres need additional improvements.
              Specifically, TSA stored unusable or obsolete equipment, maintained inappropriate safety stock
              levels, and did not develop an inventory management process that systematically deploys
              screening equipment. As a result, OIG claims TSA may be losing mility of equipment as it ages
              and annually funding approximately $800,000 ofU!U1ccded warehouse space.

              Discussion

              Overall, TSA concurs with OlG's recommendations: however, we are providing clarification and
              comment on four sections within the report; Equipment in Storage, Safety Stock, inventory
              Deployment, and Unused Warehouse Space.

              Referring to the Equipment in Storage section of the report, specifically to the Auto EDS
              equipment, in September 2012, TSA fonnaHy discontinued the Auto EDS technology program,
              and all pilot units were removed from airports. TSA is now coordinaling the transfer Hnd dblposal
              of this equipment from the warehouse. TSA notes that the Auto EDS project was unique to
              standard checked baggage EDS procurement, and the extended duration of these EDS units in
              the TSA warehouse is not representative of the majority ofEDS units.

              The report a1so states that TSA's warehouse inventory included obsolete items and cited Threat
              Image Projection Ready X-Rays (TR."X). It is true that all TRX will eventually be replaced by
              AT or AT·2 lmits. Until such time though, TSA must retain stocks ofTRX in case a replacement
              unit is needed for an airport 110t yet scheduled for AT or AT ~2 deployment. Since the
              deployment of AT-2 equipment requires training Transportation Security Officers (TSO) on the
              new technology, it is not feasible to deploy a single AT-2 machine to replace a failed TRX at an
              airpon where TSOs are all trained on TRX. For this reason, TRX safety stock is maintained at
              the warehouse.

              In the Safety Stock section, the folIowing change is suggested for the third sentence: ",. ,against
              uncertainties such as equipment failure, emerging requirements such as new airport tenninals, or
              special events (e.g. Super Dowl temporary screening)". TSA does not hold safety stock for
              "supplier shortages."

              The Sajin)! Stock section identified equipment designated as safety stock that was assigned a
              property condition code indicating it was 110t ready for deployment. TSA agrees that this is an




www.oig.dhs.gov                                              17                                                     OIG-13-82

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security



                                                                                                                    3

              area for improvement and, as a result, has instituted a weekly report to identify and highlight for
              appropriate action all safety stock nor in deployable condition.

              Table 7 identified checkpoint technology with a shortage of safciy stock that could hinder TSA' s
              ability to respond to critical failures by not baving equipment available. Table 7 included some
              ofTSA's newest technologies (e.g. L3 Advanced Imaging Technology (AIT), 500DT Expl,Qsives
              Trace Detection (EID) unils), a<; well as legacy equipment such as Itemiser U ETDs. TSA's
              deployment strategy for new technologies is to get these improved capabilities to airports first
              and backfill safety stocks afterward. Given that all airports scheduled to receive these
              technologies have not yet been completed, it is appropriate at this time for safety stock to be
              below the designated level. Also, since all legacy equipment procurements are complete and no
              more are planned, TSA's options are limited for filling legacy safety stock shortfalls. An
              initiative underway to rCMverify airport ETD requiremcnts is expected to identify some quantities
              of legacy units that are excess and may be used to filt warehouse safety stock levels.

              In the section on Inventory Deployment, the report states that TSA did not use a systematic
              inventory method for deploying screening equipment from the warehouse. TSA agrees this is an
              area for improvement. As a result, TSA incorporated an inventory policy into thc Security
              Equipment ,'\.ianagement Manual (SEMM) approved February 13, 20l3, which defines the
              factors, in priority order, for detennining which inventory is issued. First In First Out (FIFO)
              will be used for issuing inventory of a specifIc tc<::hnology, model, and configuration needed to
              fulfill airport screening requirements. The following cbange to the second sentence of the
              Inventory Deployment section is recommended: "Instead, the agenc)' requests inventory from the
              Logistics Center by serial number." Requests come from the Headquarters Program
              Management Office (PMO) instead of field users.

              In the section on Unused Warehouse Space, the report states that TSA was not using about 16
              percent of warehouse tloor space in April 2012, citing a TSA report of space usagc. The OIG
              concludes that TSA was, "paying for unused spaee that equates to an area larger than a football
              field." The OIG report did not recognize that warehouse operations are dynamic and space
              requirements temporaliiy rise and fall based on the pace of shipping and receiving operations.
              For instance. a TSA report of warehouse space usage dated February 2011 shows only 1 percent
              of floor space was unused at that time, Further, Exhibit 2 shows a misleading photograph of
              unused floor space in warehouse #2. TSA was intentionally reducing the amount of equipment
              stored in this warehnuse because the lease was lapsing in January 2013. TSA would like to
              claritY the statement in the report that "the agency used tbe empty floor space as a training area
              for its canine handlers." On one occasion~ TSA did allow canine handlers to use the warehouse
              for a brief training exercise. The purpose for Warehouse #2 was storage of screening eqUipment,
              not canine training.

              The section on Inventory Policies and Procedures states that the Security Equipment
              Management Manual (SEMM) "does not address the inventory method the contractnr should use
              to select the requested equipment." Section 7.3 ,2 of the SEM~1 docs define the factors, in
              priority order, used by TSA Headquarters for determining which inventory to issue first. Once a
              technology type, model. and configuration are identified to fulfill an aillJOrt's screening needs, a
              FIFO inventory policy is followed.




www.oig.dhs.gov                                               18                                                        OIG-13-82

                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security



                                                                                                                    4

              Overall, your recommendations will help us continue to strengthen policies and procedures for
              inventory management and warehouse usc at the TLC. We concur with your recommendations
              and have already ta..l(en steps to address them.

              Recommendation 1: Implement detailed inventory management procedun!s for equipment
              at the Transportation Security Administration's Logistics Center.

              TSA Concurs: TSA has adopted and implemented an inventory managementJX)licy to issue
              equipment on the basis of First In first Out (FIFO). In addition, a new weekly procedure has
              been instituted to identitY and highlight for appropriate action all safety stock not in deployable
              condition to ensure TSA's ability to respond quickly to critical deployment requirements.

              Recommendation 2: Develop and implement pro£edures to assess and adjust warehouse
              spaee on an annual basis.

              TSA Partially Concurs: The current warehouse leases expire on September 30, 2014, and
              planning for the next lease began in Marc-h 2013 (the TSA Office ofField Real Estate Services
              [FRES] requires 12-18 months for new leases or renewals), Space requirements for the follow-
              on lease will be based on the best available projections of equipment safety stock levels,
              deployments, and equipment life cycle replacement activity. TSA plans to lease onc warehouse
              with the capacity to satisfy storage requirements (versus two warehouses currently) to reduce
              labor costs for warehouse personnel and facility-related costs such as security system
              installation.

              TSA understands the need to reassess warehouse spacc requirements and will do so on an annual
              basis. There are considerations, however, that may make adjusting warehouse space annually
              infeasible. First of all, lease costs per square foot often vary depending on the length of the lease
              period. Generally, shmtcr leases cost more. While short lease periods provide more flexibility
              for adjusting space requirements, the cost savings associated with a longer lease may provide
              better value to the Government. TSA property personnel will work closely with agency real
              estate professionals to determine the optimum lease period that best balances cost versus
              flexibility provided no significant changes in space requirements are forecast for the proposed
              lease period. Once a lease is signed, TSA will honor its contractual commitment tor the stated
              period.

              As stated previously, the pace of shipping and receiving operations may cause temporary
              fluctuations in storage requirements. Unless unforeseen events cause significant and lasting
              reductions in the warehouse space requirement forecast, it is not practical to modify leases to
              accommodate temporary space reductions. TSA's annual assessment of warehouse space
              requirements ""ill inform Agency management officials whether adjustments are warranted, so
              appropriate action may be taken.




www.oig.dhs.gov                                               19                                                        OIG-13-82

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Appendix C
   Warehouse Inventory Aging
      Logistics Center Inventory as of May 31, 2012
       Condition     Category     S 1 year     >1 year and     � 2 years   Quantity   Dollar Value
         Code                                   < 2 years                              Recorded
        1 – New         TSE            479              218            4        701    $61,076,693
                        PER            197                91         107        395      4,215,363
                        FFE          3,184           1,485         3,127      7,796      3,557,546
          New
                                     3,860           1,794         3,238      8,892    $68,849,602
        Subtotal
        4 – Used        TSE             61                88          40        189     28,950,015
                        PER            130              19            25        174      2,294,611
                        FFE          1,325             809           101      2,235      $429,771
         Used
                                     1,516             916           166      2,598    $31,674,397
       Subtotal
       7 – Needs
                        TSE            611             233            56        900     28,542,536
         Repair
                        PER              7                 0           0          7         77,280
                        FFE            782                67           2        851        535,871
          Needs
          Repair                     1,400             300            58      1,758    $29,155,687
        Subtotal
         On-Hold        TSE             49                16           2         67     $1,232,864
       X – Pending
                        TSE            925                38           9        972     50,725,044
         Disposal
                     non-TSE         1,776             590           351      2,717      4,040,160
        Pending
        Disposal                     2,701             628           360      3,689    $54,765,204
        Subtotal
          Total                      9,526           3,654         3,824     17,004   $185,677,754
      Source: DHS OIG analysis of TSA data.





www.oig.dhs.gov                                      20                                        OIG-13-82

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix D
   Major Contributors to This Report
   Linda Howard, Director
   Christine Haynes, Audit Manager
   Tiffany Bellinger, Auditor
   Karen Gardner, Auditor
   David Lu, Program Analyst
   Tessa May-Fraser, Program Analyst
   Matthew Noll, Program Analyst
   Kevin Donahue, Independent Referencer
   Kevin Dolloson, Communications Analyst




www.oig.dhs.gov                             21                  OIG-13-82

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix E
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Transportation Security Administration

   Administrator
   TSA Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  22                        OIG-13-82

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
